                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-01669-270




    Combined Assessment Program

            Review of the

    Jesse Brown VA Medical Center

           Chicago, Illinois





August 16, 2013

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations

                    Telephone: 1-800-488-8244

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



                                            Glossary
                 CAP              Combined Assessment Program
                 CLC              community living center
                 CS               controlled substances
                 CSC              Construction Safety Committee
                 EHR              electronic health record
                 EOC              environment of care
                 facility         Jesse Brown VA Medical Center
                 FY               fiscal year
                 HPC              hospice and palliative care
                 NA               not applicable
                 NC               noncompliant
                 OIG              Office of Inspector General
                 PCCT             Palliative Care Consult Team
                 PR               peer review
                 QM               quality management
                 RME              reusable medical equipment
                 SPS              Sterile Processing Service
                 VHA              Veterans Health Administration
                 VISN             Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                   CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



                                            Table of Contents

                                                                                                                             Page

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections.............................................................                              8

  Coordination of Care – HPC ...................................................................................                  10

  Pressure Ulcer Prevention and Management .........................................................                              11

  Nurse Staffing .........................................................................................................        13

  Construction Safety.................................................................................................            14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures......                                                  17

  C. VISN Director Comments ..................................................................................                    18

  D. Facility Director Comments ...............................................................................                   19

  E. OIG Contact and Staff Acknowledgments .........................................................                              26

  F. Report Distribution .............................................................................................            27

  G. Endnotes ...........................................................................................................         28





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
May 6, 2013.

Review Results: The review covered seven activities.                               We made         no
recommendations in the following activity:

   Coordination of Care – Hospice and Palliative Care

The facility’s reported accomplishments were a partnership with the Chicago Housing
Authority to reduce homelessness for Chicago area veterans and their families and the
Project Red Initiative, a program designed to reduce readmission rates of congestive
heart failure patients.

Recommendations: We made recommendations in the following six activities:
Quality Management: Revise the local observation bed policy to include how the service
and physician responsible for the patient are determined. Consistently scan results of
non-VA diagnostic tests into electronic health records. Include the results of proficiency
testing, peer reviews when transfusions do not meet criteria, and inspections by
government and private (peer) entities in the blood usage and review process. Perform
and document patient assessments following blood product transfusions.

Environment of Care: Require that Infection Prevention and Control Committee minutes
reflect discussion of high-risk areas and actions implemented to address those areas
and that committee members or their designees participate in meetings. Ensure
Infection Prevention and Control Committee minutes reflect discussion of hand hygiene
compliance, follow-up actions, and action results. Include endotoxins in monthly
hemodialysis dialysate testing. Ensure Sterile Processing Service employees receive
annual competency assessments for all reusable medical equipment items they
reprocess. Consistently document Sterile Processing Service temperature and humidity
level monitoring.

Medication Management – Controlled Substances Inspections: Initiate actions to
address the identified deficiency, and correct all deficiencies identified during annual
physical security surveys.

Pressure Ulcer Prevention and Management: Revise the facility pressure ulcer policy to
address prevention for outpatients. Include pressure ulcer data analysis in Infection
Prevention and Control Committee minutes. Establish staff pressure ulcer education
requirements.

Nurse Staffing:      Monitor the staffing methodology that                  was    implemented in
February 2013.


VA OIG Office of Healthcare Inspections                                                              i
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Construction Safety: Require the Construction Safety Committee to continue to meet
and to ensure appropriate oversight of construction and renovation activities. Ensure all
Construction Safety Committee members or their designees consistently attend
required meetings. Conduct a contractor tuberculosis risk assessment prior to
construction project initiation. Ensure construction site inspections are conducted at the
facility’s required frequency and documented. Require designated employees to
receive initial and ongoing construction safety training. Verify contractor safety training
prior to project initiation.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 18–25, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                              JOHN D. DAIGH, JR., M.D.

                                                             Assistant Inspector General for

                                                                 Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                              ii
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



                              Objectives and Scope

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2011, FY 2012, and FY 2013 through
May 9, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
Jesse Brown VA Medical Center, Chicago, Illinois, Report No. 11-01611-250,
August 16, 2011).




VA OIG Office of Healthcare Inspections                                                             1
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


During this review, we presented crime awareness briefings for 221 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
384 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Homeless Veterans Program
The facility was selected by VA Central Office to establish a multidisciplinary program
that serves homeless veterans and those at risk for homelessness. The facility
partnered with the Chicago Housing Authority and the Department of Housing and
Urban Development to help homeless veterans and their families secure long-term
housing. The facility provides case management, supportive services, and permanent
housing for veterans within a 60 mile radius of the facility. In 2012, approximately
500 homeless veterans and their families were placed into permanent housing.

Project Red Initiative
The facility collaborated with the Agency for Healthcare Research and Quality and The
Joint Commission to implement a patient-centered program designed to enhance
patient education and reduce congestive heart failure patients’ hospital readmission
rates. The program includes one-on-one patient education while the patient is
hospitalized, enhanced patient education materials, referral to the telehealth program,
reinforcement of patient education within 48 hours of discharge, and outpatient
follow-up appointments within 1 week of discharge. The facility successfully lowered
the congestive heart failure readmission rate from 37.8 percent during quarter 1 of
FY 2012 to 16.7 percent during quarter 1 of FY 2013.




VA OIG Office of Healthcare Inspections                                                             2
                                               CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



                          Results and Recommendations

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected PR
       process were reported to the PR Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
 X     Local policy for the use of observation beds       The facility’s policy did not include how the
       complied with selected requirements.                service and physician responsible for the
                                                           patient were determined.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                                    3
                                              CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


 NC            Areas Reviewed (continued)                                    Findings
 X     Appropriate quality control processes were in     Thirty EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                  Nine test results (30 percent) were not
                                                           scanned into the EHRs.
 X     Use and review of blood/transfusions              Three quarters of the Blood Usage Review
       complied with selected requirements.              Committee meeting minutes reviewed:
                                                          The review process did not include the results
                                                           of proficiency testing, of PRs when
                                                           transfusions did not meet criteria, and of
                                                           inspections by government or private (peer)
                                                           entities.
                                                         Thirty-five EHRs of patients who received blood
                                                         products reviewed:
                                                          There was no documentation in eight EHRs
                                                            (23 percent) of a patient assessment
                                                            following the transfusion.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that the local observation bed policy be revised to include how the
service and physician responsible for the patient are determined.

2. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.

3. We recommended that processes be strengthened to ensure that the blood usage and
review process includes the results of proficiency testing, of PRs when transfusions do not meet
criteria, and of inspections by government or private (peer) entities.

4. We recommended that processes be strengthened to ensure that clinicians perform and
document patient assessments following blood product transfusions.



VA OIG Office of Healthcare Inspections                                                                    4
                                               CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the locked mental health, intensive care, and medical/surgical units; the CLC; the
emergency room; the red primary care clinic; the inpatient and outpatient hemodialysis units;
and SPS. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 26 employee training and competency files (10 hemodialysis,
10 operating room, and 6 SPS). The table below shows the areas reviewed for this topic. The
areas marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC          Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
 X     An infection prevention risk assessment was      Infection prevention risk assessment and
       conducted, and actions were implemented to       12 months of Infection Prevention and Control
       address high-risk areas.                         Committee meeting minutes reviewed:
                                                         Minutes did not reflect consistent discussion
                                                           of high-risk areas or actions that were
                                                           implemented to address these areas.
 X     Infection Prevention and Control Committee       Twelve months of Infection Prevention and
       minutes documented discussion of identified      Control Committee meeting minutes reviewed:
       problem areas and follow-up on implemented        Inconsistent committee member participation
       actions and included analysis of surveillance       resulted in agenda item discussions and
       activities and data.                                follow-up actions being deferred.
                                                         Hand hygiene compliance, follow-up actions,
                                                           and action results were not consistently
                                                           documented in minutes.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
 NC          Areas Reviewed for Hemodialysis                                Findings
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.


VA OIG Office of Healthcare Inspections                                                                   5
                                                CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


 NC          Areas Reviewed for Hemodialysis                                 Findings
                          (continued)
 X     Monthly biological water and dialysate testing     Six months of testing documentation reviewed:
       was conducted and included required                 Monthly dialysate testing did not include
       components, and identified problems were              endotoxins.
       corrected.
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
 X     Employees received required RME training            Of the 6 SPS employees on duty for more
       and competency assessment.                           than 2 years, there was no evidence that
                                                            2 received their annual competency
                                                            assessment for 1 of 4 selected RME items.
       Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
 X     Selected requirements for SPS                      Two months of SPS temperature and humidity
       decontamination and sterile storage areas          tracking logs reviewed:
       were met.                                           The April temperature and humidity tracking
                                                             log had missing dates and values.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                   6
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



Recommendations:

5. We recommended that processes be strengthened to ensure that Infection Prevention and
Control Committee minutes reflect discussion of high-risk areas and actions implemented to
address these areas.

6. We recommended that processes be strengthened to ensure that all Infection Prevention
and Control Committee members or their designees participate in meetings and that compliance
be monitored.

7. We recommended that processes be strengthened to ensure that Infection Prevention and
Control Committee minutes reflect discussion of hand hygiene compliance, follow-up actions,
and action results.

8. We recommended that processes be strengthened to ensure that monthly hemodialysis
dialysate testing includes endotoxins.

9. We recommended that processes be strengthened to ensure that SPS employees receive
annual competency assessments for all RME items they reprocess.

10. We recommended that processes be strengthened to ensure that SPS temperature and
humidity level monitoring is consistently documented and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                             7
                                              CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The area marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                      Findings
       Facility policy was consistent with VHA
       requirements.
 X     VA police conducted annual physical security     Annual physical security surveys for past
       surveys of the pharmacy/pharmacies, and          2 years reviewed:
       any identified deficiencies were corrected.       One deficiency identified on the past two
                                                           surveys had not been corrected, and
                                                           managers did not have action plans or an
                                                           explanation for why the item remained
                                                           unresolved.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 8
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



Recommendation

11. We recommended that managers initiate actions to address the identified deficiency and
that processes be strengthened to ensure that all deficiencies identified during annual physical
security surveys are corrected.




VA OIG Office of Healthcare Inspections                                                             9
                                               CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 10 EHRs of patients who had PCCT consults, and
24 employee training records (9 HPC staff records and 15 non-HPC staff records), and we
conversed with key employees. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

 NC                     Areas Reviewed                                      Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
NA     The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
NA     An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
NA     HPC inpatients were assessed for pain with
       the frequency required by local policy.
NA     HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
NA     HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
NA     The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                 10
                                               CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 12 EHRs of patients with pressure ulcers (5 patients with
hospital-acquired pressure ulcers, 4 patients with community-acquired pressure ulcers, and
3 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                        Findings
  X    The facility had a pressure ulcer prevention     Facility pressure ulcer prevention policy
       policy, and it addressed prevention for all      reviewed:
       inpatient areas and for outpatient care.          The policy did not address prevention for
                                                           outpatients.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
 X     Pressure ulcer data was analyzed and             Minutes of the Infection Prevention and Control
       reported to facility executive leadership.       Committee (committee that oversees
                                                        interprofessional pressure ulcer committee
                                                        activities) for past 6 months reviewed:
                                                         Minutes did not reflect pressure ulcer data
                                                           analysis.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.


VA OIG Office of Healthcare Inspections                                                                   11
                                              CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


 NC            Areas Reviewed (continued)                                  Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
 X     The facility defined requirements for staff       The facility had not developed staff pressure
       pressure ulcer education, and acute care staff     ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

12. We recommended that the facility pressure ulcer policy be revised to address prevention for
outpatients and that compliance with the revised policy be monitored.

13. We recommended that processes be strengthened to ensure that Infection Prevention and
Control Committee minutes include pressure ulcer data analysis.

14. We recommended that the facility establish staff pressure ulcer education requirements and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   12
                                               CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and 25 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 5E, CLC unit 6W, and mental health unit 7E/7W for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
  X    The facility completed the required steps to       The staffing methodology was not
       develop a nurse staffing methodology by the         implemented until February 2013.
       deadline.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

15. We recommended that nursing managers monitor the staffing methodology that was
implemented in February 2013.




VA OIG Office of Healthcare Inspections                                                                 13
                                                 CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the “upgrade cardiology” project, which was initiated in August 2012. Additionally,
we reviewed relevant documents and 20 training records (10 contractor records and
10 employee records), and we conversed with key employees and managers. The table below
shows the areas reviewed for this topic. The areas marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                          Findings
  X    There was a multidisciplinary committee to          The facility did not establish a CSC to
       oversee infection control and safety                 oversee construction and renovation activities
       precautions during construction and                  until December 2012.
       renovation activities and a policy outlining the
                                                          Three months of CSC minutes reviewed:
       responsibilities of the committee, and the
       committee included all required members.            CSC members or their designees did not
                                                            consistently attend meetings.
 X     Infection control, preconstruction, interim life   Risk assessments reviewed:
       safety, and contractor tuberculosis risk            A contractor tuberculosis risk assessment
       assessments were conducted prior to project           was not conducted prior to project initiation.
       initiation.
 NA    There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the             Site inspection documentation for 4 months
       required multidisciplinary team members at         reviewed:
       the specified frequency and included all            Local policy required weekly site inspections
       required elements.                                    were not consistently conducted and
                                                             documented.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
       CSC minutes documented any unsafe
       conditions found during inspections and any
       follow-up actions and tracked actions to
       completion.




VA OIG Office of Healthcare Inspections                                                                       14
                                              CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


 NC            Areas Reviewed (continued)                                   Findings
  X    Contractors and designated employees            Employee and contractor training records
       received required training.                     reviewed:
                                                        Three employee records did not contain
                                                          evidence of initial VHA or Occupational Safety
                                                          and Health Administration construction safety
                                                          training.
                                                        Two employee records did not contain
                                                          evidence of at least 10 hours of construction
                                                          safety-related training in the past 2 years.
                                                        The facility did not verify that contractor safety
                                                          training was completed prior to project
                                                          initiation.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

16. We recommended that the CSC continues to meet and ensures appropriate oversight of
construction and renovation activities.

17. We recommended that processes be strengthened to ensure that all CSC members or their
designees consistently attend required meetings and that compliance be monitored.

18. We recommended that processes be strengthened to ensure that a contractor tuberculosis
risk assessment is conducted prior to construction project initiation.

19. We recommended that processes be strengthened to ensure that construction site
inspections are conducted at the facility’s required frequency and documented.
20. We recommended that processes be strengthened to ensure that designated employees
receive initial and ongoing construction safety training and that compliance be monitored.
21. We recommended that processes be strengthened to ensure that contractor safety training
is verified prior to project initiation.




VA OIG Office of Healthcare Inspections                                                                  15
                                               CAP Review of the Jesse Brown VA Medical Center, Chicago, IL
                                                                                              Appendix A


     Facility Profile (Chicago/537) FY 2013 through March 2013a
Type of Organization                                                          Tertiary
Complexity Level                                                              1b
Affiliated/Non-Affiliated                                                     Affiliated
Total Medical Care Budget in Millions                                         $380.1
Number (through April 2013) of:
    Unique Patients                                                          37,005
    Outpatient Visits                                                        338,498
    Unique Employeesb                                                        1,916
Type and Number of Operating Beds:
    Hospital                                                                 148
    CLC                                                                      22
    Mental Health                                                            40
Average Daily Census:
    Hospital                                                                 112
    CLC                                                                      18
    Mental Health                                                            33
Number of Community Based Outpatient Clinics                                  4
Location(s)/Station Number(s)                                                 Auburn-Gresham/537HA
                                                                              Chicago Heights/537GA
                                                                              Crown Point/537BY
                                                                              Lakeside/537GD
VISN Number                                                                   12




a
    All data is for FY 2013 through March 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                 16
                                            CAP Review of the Jesse Brown VA Medical Center, Chicago, IL
                                                                                           Appendix B


                          VHA Patient Satisfaction Survey

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    69.7            60.2            60.3             51.1             48.3             53.4
    VISN        68.2            66.0            59.2             59.0             57.4             59.6
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   13.7            8.0              12.4            20.3             28.4             24.9
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         17
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL
                                                                                         Appendix C
                              VISN Director Comments



                Department of
                Veterans Affairs                                     Memorandum


       Date:	          July 5, 2013

       From:	          Director, VA Great Lakes Health Care System (10N12)

       Subject:	       CAP Review of the Jesse Brown VA Medical Center,
                       Chicago, IL

       To:	            Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1.	 I concur with the Office of Healthcare Inspections recommendations as
           well as the corrective action plans developed by the Jesse Brown VA
           Medical Center.

       2.	 Thank-you for the opportunity to review the findings enclosed in this
           report.




           (For and in the absence of:)
           Jeffrey A. Murawsky, M.D.




VA OIG Office of Healthcare Inspections                                                            18
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL
                                                                                         Appendix D
                            Facility Director Comments



                Department of
                Veterans Affairs	                                    Memorandum


       Date:	          June 27, 2013

       From:	          Director, Jesse Brown VA Medical Center (537/00)

       Subject:	       CAP Review of the Jesse Brown VA Medical Center,
                       Chicago, IL

       To:	            Director, VA Great Lakes Health Care System (10N12)

       1.	 I would like to express my appreciation to the Office of Inspector
           General (OIG) Survey Team for their professional and comprehensive
           CAP review conducted May 6–9, 2013.              The results of their
           assessment validate the efforts of this Medical Center in providing high
           quality health care to our nation’s Veterans.

       2.	 I have reviewed the draft report for the Jesse Brown VA Medical
           Center and action plans are provided for the recommendations made
           in the six activities.

       3.	 I appreciate the opportunity to submit this response in support of
           continuous improvement in health care services provided to our
           Veterans.


                 (original signed by:)
           Mario V. DeSanctis, FACHE




VA OIG Office of Healthcare Inspections                                                            19
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the local observation bed policy be
revised to include how the service and physician responsible for the patient are
determined.

Concur

Target date for completion: August 7, 2013

Facility response: The Observation Beds Policy was updated to include how the service
and physician assignment for patients are determined. The policy updates were
provided to all bed service chiefs and will be discussed at the next Medical Executive
Committee Meeting.

Recommendation 2. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: October 1, 2013

Facility response: The results of the non-VA purchased diagnostic tests entered into the
EHRs will be monitored and reported to the Medical Record Committee to ensure
90% compliance is achieved and sustained.

Recommendation 3. We recommended that processes be strengthened to ensure that
the blood usage and review process includes the results of proficiency testing, of PRs
when transfusions do not meet criteria, and of inspections by government or private
(peer) entities.

Concur

Target date for completion: October 1, 2013

Facility response: The proficiency testing (quality controls) results will be added as a
standing agenda item for the quarterly Blood Transfusion Committee and documented
in the minutes. Peer reviews will be conducted on all blood transfusions that do not
meet criteria. Peer reviews and all inspections by government or private (peer) entities
will be presented at the Blood Transfusion Committee. The committee minutes will be
monitored to ensure 90% compliance is achieved and sustained.




VA OIG Office of Healthcare Inspections                                                            20
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Recommendation 4. We recommended that processes be strengthened to ensure that
clinicians perform and document patient assessments following blood product
transfusions.

Concur

Target date for completion: October 1, 2013

Facility response: A progress note template is being developed to document patients’
post blood transfusion patient’s assessment. Electronic health record reviews will be
conducted and monitored to ensure that 90% compliance is achieved and sustained.

Recommendation 5. We recommended that processes be strengthened to ensure that
Infection Prevention and Control Committee minutes reflect discussion of high-risk
areas and actions implemented to address these areas.

Concur

Target date for completion: September 1, 2013

Facility response: All high-risk areas have been added as standing agenda items to the
Infection Prevention and Control Committee. Actions implemented to address the
high-risk areas and follow-up will be discussed at meetings until actions are closed.
Meeting minutes will be monitored to ensure documentation of discussions.

Recommendation 6. We recommended that processes be strengthened to ensure that
all Infection Prevention and Control Committee members or their designees participate
in meetings and that compliance be monitored.

Concur

Target date for completion: November 1, 2013

Facility response: The Infection Prevention and Control Committee attendance is
tracked. Members are reminded to attend the meeting or send a representative. The
Infection Prevention and Control Committee reports two consecutive absences to the
Quality Leadership Council. Attendance will be monitored until 90% compliance is
achieved and sustained.

Recommendation 7. We recommended that processes be strengthened to ensure that
Infection Prevention and Control Committee minutes reflect discussion of hand hygiene
compliance, follow-up actions, and action results.

Concur

Target date for completion: November 1, 2013




VA OIG Office of Healthcare Inspections                                                            21
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Facility response: A reporting template for monthly hand hygiene monitor audits was
developed and shared with the Infection Control Facilitators and Nurse Managers.
Completion of an action plan is required when hand hygiene results are less than
80% compliant. Actions plans are reported and monitored in the Infection Control
Committee meeting minutes until closed.

Recommendation 8. We recommended that processes be strengthened to ensure that
monthly hemodialysis dialysate testing includes endotoxins.

Concur

Target date for completion: July 18, 2013

Facility response: The hemodialysis dialysate testing for endotoxins was initiated during
the survey in May 2013. Results are reviewed monthly for compliance and reported to
the Infection Prevention and Control Committee.

Recommendation 9. We recommended that processes be strengthened to ensure that
SPS employees receive annual competency assessments for all RME items they
reprocess.

Concur

Target date for completion: September 1, 2013

Facility response: The two SPS personnel with incomplete competencies at the time of
the OIG review completed their annual competencies on June 25, 2013. Competencies
for all SPS employees are now 100% compliant. SPS employee competencies are
monitored monthly as a standing agenda item for the Reusable Medical Equipment
Committee.

Recommendation 10. We recommended that processes be strengthened to ensure
that SPS temperature and humidity level monitoring is consistently documented and
that compliance be monitored.

Concur

Target date for completion: September 1, 2013

Facility response: As a result of a VISN SPS audit, an automated temperature tracking
system was ordered. Currently, SPS staff manually monitors temperature and humidity
levels daily and documentation of the levels is verified by the lead SPS technician.




VA OIG Office of Healthcare Inspections                                                            22
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Recommendation 11. We recommended that managers initiate actions to address the
identified deficiency and that processes be strengthened to ensure that all deficiencies
identified during annual physical security surveys are corrected.

Concur

Target date for completion: September 1, 2013

Facility response: All identified deficiencies noted in the Annual Physical Security
Survey have been corrected, including successfully testing the alarm systems. The
annual Physical Security Assessment will be a standing agenda item for the Security
Subcommittee. The action plans will be tracked, monitored and documented until
closure. The Security Subcommittee reports bimonthly to the Environment of Care
Committee.

Recommendation 12. We recommended that the facility pressure ulcer policy be
revised to address prevention for outpatients and that compliance with the revised
policy be monitored.

Concur

Target date for completion: October 1, 2013

Facility response: The Pressure Ulcer Policy is being revised to include outpatient
pressure ulcer prevention program. The clinical reminder for performing Braden Scale
and completion of a skin assessment annually for all outpatients will be incorporated in
the new policy. Staff will receive training on the policy revisions. Electronic Health
Record reviews will be completed to ensure 90% compliance is achieved and sustained.

Recommendation 13. We recommended that processes be strengthened to ensure
that Infection Prevention and Control Committee minutes include pressure ulcer data
analysis.

Concur

Target date for completion: November 1, 2013

Facility response: Pressure ulcer data analyses will be reported to the Infection
Prevention and Control Committee bimonthly. Meeting minutes will be monitored to
ensure documentation of Pressure Ulcer data analyses.

Recommendation 14. We recommended that the facility establish staff pressure ulcer
education requirements and that compliance be monitored.

Concur

Target date for completion: October 1, 2013




VA OIG Office of Healthcare Inspections                                                            23
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Facility response: The pressure ulcer policy is being revised to include education
requirements for nursing staff. Nursing competencies on pressure ulcer prevention and
management will be reviewed monthly to ensure 90% compliance is achieved and
sustained.

Recommendation 15. We recommended that nursing managers monitor the staffing
methodology that was implemented in February 2013.

Concur

Target date for completion: July 1, 2013

Facility response: Each month the Associate Director Patient Care Services
(ADPCS)/Nurse Executive reviews the previous month’s staffing results and provides
feedback to the Nurse Managers.

Recommendation 16. We recommended that the CSC continues to meet and ensures
appropriate oversight of construction and renovation activities.

Concur

Target date for completion: September 1, 2013

Facility response: The Construction Safety Committee has been meeting monthly since
December 2012. The oversight of construction and renovation is documented in the
Construction Safety Committee meeting minutes

Recommendation 17. We recommended that processes be strengthened to ensure
that all CSC members or their designees consistently attend required meetings and that
compliance be monitored.

Concur

Target date for completion: August 1, 2013

Facility response: Meeting attendance requirements were reviewed with Construction
Safety Committee members. Member attendance will be discussed during supervisor
performance review meetings.        Meeting attendance will be monitored until
90% compliance is achieved and sustained.

Recommendation 18. We recommended that processes be strengthened to ensure
that a contractor tuberculosis risk assessment is conducted prior to construction project
initiation.

Concur

Target date for completion: October 1, 2013




VA OIG Office of Healthcare Inspections                                                            24
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL


Facility response: The Infection Control Risk Assessments (ICRA) were expanded to
include tuberculosis (TB) risk assessments. All construction projects have an ICRA
completed prior to initiation of the project. The construction project database is
monitored for completion by Engineering and Infection Control.

Recommendation 19. We recommended that processes be strengthened to ensure
that construction site inspections are conducted at the facility’s required frequency and
documented.

Concur

Target date for completion: October 1, 2013

Facility response: Construction site inspections are conducted weekly by the Safety
Manager. The policy has been revised to allow for a Safety Department representative
to conduct inspections in the absence of the Safety Manager. Weekly site inspections
are monitored to ensure 90% compliance is achieved and sustained.

Recommendation 20. We recommended that processes be strengthened to ensure
that designated employees receive initial and ongoing construction safety training and
that compliance be monitored.

Concur

Target date for completion: October 1, 2013

Facility response: All designated personnel have been scheduled to complete
construction safety training. Construction safety training will be monitored and reported
monthly at the Construction Safety Committee meeting to assure 90% compliance is
achieved and sustained.

Recommendation 21. We recommended that processes be strengthened to ensure
that contractor safety training is verified prior to project initiation.

Concur

Target date for completion: August 1, 2013

Facility response: Contractors are now required to provide proof of construction safety
training completion prior to working on a construction project. Contractor training
completion will be documented in the construction project database for all projects and
reported to the Construction Safety Committee to ensure 90% compliance is achieved
and sustained.




VA OIG Office of Healthcare Inspections                                                            25
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Debra Boyd-Seale, PhD, RN, Team Leader
Contributors            John Brooks
                        Paula Chapman, CTRS
                        Sheila Cooley, GNP, MSN
                        Wachita Haywood, RN
                        LaNora Hernandez, MSN, RN
                        Laura Spottiswood, RN, MPH
                        Roberta Thompson, LCSW
Other                   Judy Brown
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                            26
                                          CAP Review of the Jesse Brown VA Medical Center, Chicago, IL
                                                                                          Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Jesse Brown VA Medical Center (537/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Daniel Coats, Joe Donnelly, Richard J. Durbin, Mark Kirk
U.S. House of Representatives: Danny K. Davis, Tammy Duckworth, Luis Gutierrez,
 Robin Kelly, Adam Kinzinger, Daniel Lipinski, Mike Quigley, Bobby L. Rush,
 Jan Schakowsky, Peter Visclosky, Jackie Walorski


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                            27
                                            CAP Review of the Jesse Brown VA Medical Center, Chicago, IL
                                                                                           Appendix G

                                               Endnotes

1
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009.

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation

   Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Material Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010.
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       28
                                               CAP Review of the Jesse Brown VA Medical Center, Chicago, IL



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        29
